                                                      OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM




          A proadtive review of rural and urban systemic initiative programs revealed an award1which had
          three ~kncipalInvestigators (PI) in three years. This investigation was initiated to determine
          whether NSF grant funds were at risk due to the high turnover of PIS.

          This investigation, which included a review of all grant documents and an interview of the NSF
          prog& ~ i r e c t o disclosed
                              r~        no indications that the grant hnds were at risk.

          In light tof the fact that there is no evidence of wrongdoing and that the NSF Program Director
          had no'koncerns regarding the financial management of this award, no further investigation is


          ~ c c o r d i n ~this
                            l ~ case
                                ,    is closed.




NSF OIG Form 2 (1 1/02)
